OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
DEMOCRACY AND
GOVERNANCE ACTIVITIES IN
KYRGYZSTAN
AUDIT REPORT NO. 8-116-08-002-P
June 12, 2008




FRANKFURT, GERMANY
      Office of Inspector General


June 12, 2008

MEMORANDUM

TO:             USAID/Central Asian Republics Regional Mission Director, William Frej

FROM:           Regional Inspector General, Frankfurt, Gerard M. Custer /s/

SUBJECT:        Audit of USAID’s Democracy and Governance Activities in Kyrgyzstan
                (Report Number 8-116-08-002-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report, making changes where appropriate, and have
included your comments in their entirety in appendix II.

The report contains no recommendations, so no further action is required on your part.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

  Audit Objective ............................................................................................................... 2

Audit Findings ................................................................................................................. 3

     Program Activities Achieving Limited Impact .............................................................. 8

Evaluation of Management Comments ....................................................................... 13

Appendix I – Scope and Methodology ........................................................................ 14

Appendix II – Management Comments ....................................................................... 16

Appendix III – Schedule of Kyrgyzstan’s Democracy and Governance Programs 17
SUMMARY OF RESULTS
Following Kyrgyzstan’s “Tulip Revolution”, in March 2005, and subsequent presidential
election later that year, the Government embraced the need for a series of reforms,
covering rule of law, fiscal decentralization, parliament and the media. To assist the
country in its efforts at political reform and improve democratic governance, USAID has
supported a broad range of activities—through targeted technical assistance, training
and other assistance—intended to build on prior program activities and improve local
governance and accountability as well as strengthen the country’s parliament, civil
society, media, political parties, and human rights organizations.

This audit was conducted as part of a multi-country audit, led by the USAID Office of
Inspector General’s Performance Audit Division in Washington, D.C., focusing on
USAID’s democracy and governance (DG) activities. The objective of this audit was to
determine if USAID’s DG activities in Kyrgyzstan were achieving their intended results
and to assess the impact of those results. (See page 2.)

From October 1, 2005 through September 30, 2007 (fiscal years 2006 and 2007),
USAID’s DG activities in Kyrgyzstan were, for the most part, achieving their intended
results for the items tested. During this two-year period, the mission met most of the
planned targets established for the performance (“standard”) indicators used by the
mission to report its performance results to Washington via its annual Operational Plan.
Of the two performance indicators that the mission had established planned targets for
and reported results against for fiscal year (FY) 2006 and the seven indicators reported
on for FY 2007, the mission met or exceeded the targets for all but two indicators (See
page 3.). The shortfalls under both of these indicators were attributed to factors
considered to be beyond the mission and implementer’s control (e.g., decision by
Kyrgyzstan’s president to dissolve the parliament and programming decisions by
USAID/W prompting delays in the start-up of new activities expected to generate results
under one indicator). In addition to meeting the planned targets under its performance
indicators, our review of a sample of planned DG activities found that most of these
activities were achieving their planned results. Of the 66 planned activities selected for
review, covering the FY 2006 and 2007 time frame, we determined that all but four were
fully or substantially completed and achieving their intended results, while the remaining
four could not be completed for reasons beyond the implementer’s control. (See page 4.)

The audit, however, determined that USAID’s DG activities have had a limited impact in
promoting Kyrgyzstan’s democratic development as reflected by the lack of progress
shown in a number of widely used industry and USAID indices. The lack of impact was
attributed to several factors, including declining funding levels, the large number of
implementing mechanisms in the mission’s portfolio, and Kyrgyzstan’s difficult political
environment. Since these factors were determined to be outside the mission’s control, a
formal recommendation on this issue was not deemed necessary. As a result, the report
contains no recommendations. (See page 8.)

The USAID Mission for the Central Asian Republics (USAID/CAR), which is responsible
for managing USAID’s DG activities in Kyrgyzstan, concurred with the findings discussed
in the audit report. (See page 13.)

Management comments are included in their entirety in appendix II.

                                                                                        1
BACKGROUND
Since Kyrgyzstan’s “Tulip Revolution” of March 2005, which followed disputed
parliamentary elections that led to the ouster of Kyrgyzstan’s former President and a
new presidential election—considered one of the fairest in Central Asia—later that year,
the country has been at a crossroad in its political development. With a new president
elected, the country embraced the need for a series of reforms, covering rule of law,
fiscal decentralization, parliament and the media which, in turn, have created
opportunities for civil society participation and free media operation. However, structural
changes in the balance of power within the government and effective mechanisms for
maintaining accountability are still needed to ensure sustained democratic governance.

To assist Kyrgyzstan in its efforts at political reform and in implementing critical changes
needed to institutionalize democratic governance, USAID has supported a broad range
of activities intended to build on prior program activities and improve local governance
and accountability by strengthening the country’s parliament, civil society, media,
political parties, and human rights organizations. Specifically, USAID assistance—
consisting of targeted technical assistance, training and other support—seeks to help the
new Kyrgyz government establish strong institutions of governance, strengthen rule of
law, and implement fair and effective political processes, while also nurturing public
interest in politics through public discussions.

Kyrgyzstan’s democracy and governance programs are managed by the USAID Mission
for the Central Asian Republics (USAID/CAR), through its country office in Kyrgyzstan
(country office), and implemented by a number of implementing partners funded through
contracts and cooperative agreements. As of September 30, 2007, the mission’s
portfolio consisted of twenty-two mission-managed programs 1 , administered by fourteen
implementers, whose authorized funding level totaled approximately $42.8 million, with
cumulative obligations and expenditures totaling approximately $33.6 million and $20.3
million, respectively. (See appendix III.)

This audit focused on selected activities administered for 8 of the 22 programs which
covered the following areas: (1) human rights, (2) governance (legislative; local
government), (3) political competition (political parties; elections and political processes),
and (4) civil society (civic participation; media freedom).


AUDIT OBJECTIVE
As part of a multi-country audit led by the USAID Office of Inspector General’s
Performance Audit Division, the Regional Inspector General in Frankfurt, Germany
conducted this audit to answer the following question:

       Are USAID’s democracy and governance activities in Kyrgyzstan achieving
        intended results and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.

1
  The portfolio also included two programs managed by USAID/Washington which were excluded
from the scope of our audit.
                                                                                            2
AUDIT FINDINGS
During the period from October 1, 2005 through September 30, 2007, USAID’s
democracy and governance (DG) activities in Kyrgyzstan were, for the most part,
achieving their intended results with respect to the items tested. However, the overall
impact of these and earlier program activities have been limited.

Based on reported results data, Kyrgyzstan’s DG activities met or exceeded most of the
planned targets established for the standard performance indicators specified in the
country’s annual operational plan, which includes indicators that all USAID operating
units are required to report on to the Office of the Director of U.S. Foreign Assistance
Bureau of the State Department, for fiscal years (FYs) 2006 and 2007.

For FY 2006, the initial year of reporting under the State Department’s new performance
results reporting system, the USAID Mission for the Central Asian Republics
(USAID/CAR), through its country office in Kyrgyzstan, reported results under five
standard indicators, with only two of the five having established targets 2 that year, both
of which were met. For FY 2007, the number of indicators reported on (where actual
results were being reported against planned targets) was expanded from two to seven.
Of these seven indicators, the mission exceeded the planned targets for five, but fell
short on meeting the targets for the remaining two, which we determined were not met
for reasons deemed to be beyond the control of the mission and its implementers.

The targets not met related to two performance indicators which were designed to track
the (i) number of USG assisted civil society organizations that engaged in advocacy and
watchdog functions; and (ii) number of positive modifications to legislation, drafted with
USG assistance, supporting the media. Shortfalls related to these two indicators were
attributed to several factors, including programming decisions by USAID/Washington
which deferred the start-up of a new program activity expected to generate results under
one of the indicators. In addition, the difficult political situation in Kyrgyzstan, with the
ongoing conflict between the country’s Parliament and Executive branch over the
President’s authority, was another contributing factor which negatively affected the
Government’s ability to pass key legislation, thereby limiting the results under another
indicator (“Number of positive modifications to enabling legislation for media drafted with
USG assistance”). This situation deteriorated further when the President made a
sudden announcement, in September 2007, to dissolve the Parliament and called for
snap parliamentary elections to take place in December 2007.

A comparison of actual reported performance results in relation to planned targets for
FYs 2006 and 2007 is presented in the following chart.



2
  Since the timing of the initial roll-out of the State Department’s new performance results
reporting mechanism, in early-FY 2007, occurred after FY 2006—at a time when Kyrgyzstan’s
DG portfolio was in a state of transition, with a number of its programs ending during that time
frame and uncertainty concerning the start-up of new programs due to several programming
issues—the mission was unable to establish meaningful targets under its standard indicators for
FY 2006. For that year, targets were established under two indicators, but only because these
indicators happened to match two that were already being tracked by two implementers (among
the set of performance indicators specified in their work plans) under their respective programs.
                                                                                               3
      Results Reported for Standard Indicators - For FYs 2006 and 2007

                                                                Targets and Actual Results
   Program
                                 Indicator                       FY 2006           FY 2007
   Element
                                                              Target   Actual   Target   Actual
 2.1.4           Number of public advocacy campaigns
 Human Rights    on human rights supported by USG
                                                                3        3        3        8
 2.2.1           Number of national legislators and
 Legislative     national legislative staff attending USG
                 sponsored training or educational
                                                               N/A      N/A      150      175
                 events
 2.2.3 Local     Number of sub-national government
 Government      entities receiving USG assistance to          25       25       150      160
                 improve their performance
 2.3.3 Political Number of individuals who receive
 Parties         USG-assisted political party training
                                                               N/A      N/A     3,156    3,227
 2.4.1 Civic     Number of positive modifications to
 Participation   enabling legislation/regulations for civil
                 society accomplished with USG
                                                               N/A      N/A       1        1
                 assistance
                 Number of USG Assisted Civil Society
                 Organizations that engage in advocacy         N/A      N/A      15        0
                 and watchdog functions
 2.4.2 Media     Number of positive modifications to
                 enabling legislation/regulations for          N/A      N/A       2        1
                 media drafted with USG assistance

In addition to meeting the targets under most of its standard indicators, Kyrgyzstan’s DG
activities, for the most part, were completed as planned and had achieved their intended
results for the items tested. Specifically, the audit team reviewed a total of 66 activities,
consisting of 19 of 174 planned activities (11 percent) for FY 2006 and 47 of 164
activities (29 percent) for FY 2007, which were selected from 8 of the 22 mission-
managed programs in the country’s portfolio. Of the 66 planned activities reviewed, 62
were determined to have been successfully completed, having achieved their intended
results as specified in the implementer’s work plan, while the remaining four activities
were either not completed or not achieving planned results for reasons that were
deemed to be justifiable and beyond the mission’s and implementer’s control.

One of the four activities, for example, involved the provision of technical assistance in
financial management to at least five cities and seven rural municipalities. Although the
implementer initiated work under this activity, the activity could not be completed and
had to be temporarily halted due to the sudden passage of a new national budget
system, which required staff originally assigned to this activity to be reassigned to work
on the new budget system, a change approved by the mission, which was considered a
higher priority at the time. Another activity involved assisting keneshes (local councils)
in rural municipalities in developing their own administrative procedures, a task that was
later cancelled when it was learned that a government working group had elected to
develop model procedures to be used by all local governments, including all keneshes,
making the drafting of administrative procedures for individual keneshes unnecessary.




                                                                                                4
In most cases, however, the DG activities selected for review were found to have been
successfully completed (i.e., achieved intended results), with a number of these activities
producing positive results, as illustrated in the examples listed below.

   Parliament: Under USAID/CAR’s Parliamentary Strengthening Program (designed
    to help Kyrgyzstan’s Parliament operate in a more transparent manner), the
    implementing partner completed one activity which reported on the Parliament’s legal
    authorities to oversee the Government and provided recommendations on how the
    Parliament could more effectively exercise its authority to review and draft legislation.

   Local Governance: Under Kyrgyzstan’s Decentralization and Local Government
    Program, USAID funds were used to support the Kyrgyz Government in
    implementing its decentralization reforms through activities designed to strengthen
    local governments' capacity to meet the community’s needs and promote community
    participation at the local level. Among other things, these activities emphasized the
    development of checks and balances within local administrations and between the
    administrations and elected councils. One activity, for example, offered training to
    develop local government capacity in asset management and technical advice on a
    wide range of topics, such as how to manage and register municipal property.
    Thanks, in part, to this activity, community members began to see the benefits and
    advantages associated with the effective management of municipal land. According
    to one entrepreneur, “Today any person may lease or buy land from the mayor’s
    office and start his or her own business─our lives have improved as a result.”

   Election Reform Efforts: To assist the Kyrgyz Government in reforming its
    electoral framework, USAID funds were used to publish an Ink Manual, explaining
    the use of inking, including its costs and administration, in ensuring that votes are
    cast only once. Both the manual, and the required inking equipment, were provided
    to the government for use in initiating its own inking program.




       Photo of a technician demonstrating the use of an ultra-violet light designed to
       check for ink used to ensure that votes are cast only once during elections.
       (Photo furnished by the International Foundation Electoral Systems, IFES)

                                                                                           5
   Human Rights: Under the mission’s Human Rights Program, designed to strengthen
    the technical and organizational capacity of local human rights defenders (HRDs) to
    identify, monitor, report, and advocate for change on critical community-based and
    national human rights issues, the mission’s implementing partner organized and
    sponsored a regional network conference—the first in Central Asia—attended by
    HRDs from Kyrgyzstan, connecting them with HRDs from other countries within
    Central Asia. This activity, which proved to be a success, resulted in the drafting of a
    strategy dealing with access to information and the draft of a new freedom of
    information law as well as recommendations on increasing reporting to international
    media outlets and the preparation of complaints for the United Nations.

   Rule of Law: To raise public awareness over individual rights, one implementer
    produced and broadcasted six public service announcements nationwide on national
    and local television stations—exceeding the planned target by 200 percent—while
    also distributing 4,000 brochures—double the planned target—throughout the
    country, which, together, increased the availability of legal information to citizens and
    provided them with a better understanding of their rights under the law. Another
    activity carried out by this same implementer involved the provision of training to
    university students to teach “Street Law”—covering basic domestic law, democracy
    and civil rights issues—at secondary schools and madrassas (religious schools). As
    a result of this activity, Islamic leaders in Kyrgyzstan have come to realize that
    knowledge of Islamic law alone is not sufficient for their students to live in a secular
    state and that their community needs to know their rights if they are to exercise their
    faith freely. Due to the success of the program, the implementer received permission
    to expand the program to other madrassas in additional regions.




    Photo showing the DVD cover of a documentary, produced under USAID’s Legal Education
    Activities in Central Asia Program, dealing with the topic of the arrest authority of the courts,
    which was broadcasted on local TV in Kyrgyzstan in 2007. (Photo furnished by ABA/CEELI)



                                                                                                   6
   Media Development: To promote the development of independent broadcasting in
    Kyrgyzstan and increase the variety and availability of news and information to the
    public, USAID funds were used by one implementer to establish an Open Media
    Fund for Central Asia, which financed 123 broadcasting productions for Kyrgyzstan
    during FY 2007. These productions—consisting of talk shows, documentaries and
    other programs—covered a wide range of political, economic and social issues. In
    addition to sponsoring these productions, resources were allocated from the Fund to
    provide legal assistance for local journalists and representatives of media outlets,
    which included over 150 consultations on various legal issues, including investigative
    journalism, libel and protection of a person’s honor, dignity, and business reputation.

   Political Party Strengthening: Another DG activity, intended to promote the
    involvement of youth in politics, involved a training project (“New Generation of
    Creative Politicians”), which consisted of seven training sessions covering topics,
    such as political parties, public speaking, team building, and strategic planning.

   Conflict Mitigation: To help Kyrgyzstan’s citizens and leaders to address conflict in
    an effective and peaceful manner, USAID funds were used to support a variety of
    community-based economic development activities. One of these was designed to
    improve the public’s access to information in targeted provinces through the
    installation of information boards, which has proven to be an effective means of
    disseminating information in the local communities, since many there have no
    access to advertising opportunities through radio or television. During FY 2007, the
    implementer worked with local government officials to install 14 of these boards in 7
    communities in Kyrgyzstan’s southern region. Another activity involved the provision
    of training under a master apprentice program, which successfully graduated 62
    apprentices and masters during its first round of apprenticeships in FY 2007—32 of
    whom have since found permanent jobs in Kyrgyzstan and abroad.




     Photo of graduates of a master apprentice program, held in Kyrgyzstan’s southern
     district of Osh and sponsored under a USAID local government program. (Photo
     furnished by Mercy Corps; December 2006)
                                                                                         7
Despite these positive achievements, USAID’s DG activities in Kyrgyzstan have had a
limited impact in promoting the country’s democratic development as discussed below.



Program Activities Achieving
Limited Impact

 Summary: USAID policies emphasize the importance of ensuring that USAID-funded
 activities have a positive impact on achieving desired program results and objectives.
 The audit, however, determined that USAID’s DG activities in Kyrgyzstan have had a
 limited impact in promoting the country’s democratic development as reflected by the
 lack of progress shown in a number of widely used industry and internal USAID
 indices. The lack of impact was attributed to several factors, including declining
 funding levels, the large number of implementing mechanisms in the country’s
 portfolio, and the difficult political environment in Kyrgyzstan. As a result of these
 factors, which, in some cases, undermined many of the gains achieved to date under
 certain program activities, USAID has been unable to maintain sustainable progress
 towards its objective of helping to promote Kyrgyzstan’s democratic development
 through increased accountability and improved governance. Although the mission had
 taken steps earlier to try to increase the impact of its activities, by reducing the
 number of programs in its portfolio and strategically focusing its limited resources on
 those areas where it felt it could have the greatest impact, these strategic
 programming decisions were unfortunately not approved by USAID/Washington due to
 other considerations that were deemed to be beyond the mission’s control.


Automated Directives System (ADS) Section 201.3.12.4, Overview of Activity Planning
Requirements, summarizes the major requirements for planning USAID-funded
activities. These requirements are based on several principals, one of which states that
“Operating Units should question and refrain from activities with little tangible impact on
intended results.” In promoting improved governance and democratic institutions in
Kyrgyzstan, USAID assistance has focused on: (1) developing sustainable civic
organizations; (2) increasing the availability of information on civic and domestic public
issues; (3) creating opportunities for citizen participation in governance; and (4)
supporting more effective, responsive, and accountable public institutions.

Although USAID’s DG program activities in Kyrgyzstan have resulted in some notable
achievements, these activities, taken collectively, have had a limited impact in promoting
the country’s overall democratic development.           Despite the level of resources
programmed for this country since FY 2000 (in excess of $50 million), democratic
development in Kyrgyzstan has either made little or no progress according to most
standard indices of democratic performance. For example, Freedom House’s Nations in
Transit index, used to measure a country’s progress towards democratic change and
any setbacks to political transition, showed no progress achieved in Kyrgyzstan between
FYs 1999 and 2007. Also, the organization’s index for measuring press freedom
indicated that press freedom in the country actually declined during the period from FY
2000 to FY 2007, as illustrated in the chart below.




                                                                                         8
                                   Freedom House: Kyrgyzstan Press Freedom Index (1994 to 2007)
0=most free; 100=least free                                (unaudited)

                              90
                                         Not Free                                                 71    71     71
                                                                                             68                            67
                                                                64    64                                            64
                                                60         61                   61   61
                              60           52
                                   49
                                                       Partly Free

                              30
                                        Free

                               0
          1994
Linear chart     1995 data
             presenting 1996relating
                               1997 to199 8 1999House’s
                                       Freedom     2000 Press
                                                           2001 Freedom
                                                                2002 2003 Index2004   2005 2006The2007
                                                                                 for Kyrgyzstan.     chart
covers the period from 1994 to 2007 and indicates press freedom declined slightly between 2000 to 2007.
Similarly, the mission’s own internal indices also reflected little or no progress. For
example, the mission’s NGO sustainability index, the Bureau of Europe and Eurasia’s
(E&E Bureau’s) premier instrument for gauging the strength and continued viability of
each country’s NGO sector, demonstrated little change between FYs 2000 to 2006.
Likewise, data collected based on the mission’s public opinion surveys showed that
confidence in local government has actually declined since FY 2003 as shown below.


USAID/CAR Public Opinion Poll: Kyrgyzstan - Percentage Confidence in
Local Government: 2000 to 2005 (unaudited)

         30
                                                                                          28
                                                        26                 27
         25                                                                                               25             25
                                                                                      19.4
         20                                                                                            17.4
                                                                     16.4
         15
                                                                                                                    11.7
         10                                          7.6

                         5         3.5

                         0
                                   2000              2001            2002             2003             2004         2005

                                       Actual      PMP Target
Bar chart showing the results of a series of public opinion polls, conducted by USAID/CAR
between 2000 and 2005, which were intended to measure the percentage of public confidence in
local government in Kyrgyzstan. The chart shows a decline from 19.4 in 2003 to 11.7 in 2005.
The limited impact achieved by USAID’s democracy programs in Kyrgyzstan is attributed
to several factors which include: (1) declining funding levels; (2) the large number of
implementing mechanisms maintained in the mission’s portfolio; and (3) the political
environment in Kyrgyzstan. These are discussed in further detail below.


                                                                                                                                9
    Declining Funding Levels: Since FY 2002, USAID funding for democracy
    programs in the Central Asia region, including Kyrgyzstan, has been declining.
    While Kyrgyzstan’s democracy budget has varied during this time frame, peaking at
    $8.19 million in FY 2005, the funding level has declined since then, decreasing to
    $6.84 million in FY 2007. This decline, in turn, has resulted in a reduction in the
    number and scope of activities being carried out by Kyrgyzstan’s main implementers.

    Large Number of Implementing Mechanisms: In addition to declining resources,
    Kyrgyzstan’s democracy budget was further constrained by the large number of
    implementing mechanisms in its portfolio. As of September 30, 2007, the mission’s
    portfolio consisted of twenty-four programs, including two that were managed by
    USAID/Washington, many of which had authorized funding levels under $1 million.
    According to an internal regional strategy document drafted by USAID/CAR in the
    Spring of 2006, since FY 2000, USAID/CAR’s portfolio of democracy programs
    (including those for Kyrgyzstan) “…grew to cover a wider range of technical areas
    with an equally broad number of implementing partners, with the expectation that
    broad coverage of democracy issues would allow for response to emerging
    opportunities.” In practice, however, this approach prevented the mission from being
    able to address any one area in depth since limited resources were being spread
    among a large number of primarily U.S. implementers where a majority of the
    funding was being used for office operations and staffing, leaving little left for actual
    programming, according to mission records. To illustrate, an analysis of the
    operating budgets for implementers of the mission’s portfolio of democracy programs
    for FYs 2006 and 2007, done by USAID/CAR, revealed that implementer operating
    costs 3 (excluding funding for activities) represented an average of 73 percent of the
    portfolio’s entire democracy budget during those two years. With such a small
    portion of the budget left for activities, this limited the number of actual activities
    carried out under each program, thereby limiting the portfolio’s overall impact.

    Recognizing this, USAID/CAR attempted to address the problem in 2006 as part of
    its efforts to develop a country specific strategy for Kyrgyzstan. Based on anticipated
    funding levels, an assessment of the country’s development needs, and a review of
    past performance and results (per its latest internal portfolio review and sector
    assessments), the mission identified areas of priority where it felt it could achieve the
    greatest impact, given current funding levels, and restructured its portfolio
    accordingly to pursue a more focused approach. This restructuring, among other
    things, entailed the phasing out of two existing programs in FY 2006, one year earlier
    than originally planned, in an effort to scale down the size of the portfolio and focus
    its limited resources on those activities considered to be priority areas.

    Washington, however, did not concur with this approach. In reviewing the mission’s
    proposed regional strategy, the E&E Bureau and State Department’s Office of the
    Coordinator of U.S. Assistance to Europe and Eurasia (EUR/ACE) were not in favor
    of the idea of implementing a more focused strategic approach and, instead, directed
    the mission to implement a slightly broader range of activities and continue to work in
    the two program areas that were slated to be phased out early. For example, rather
    than incorporating a political party development activity in a planned parliamentary
    strengthening program—as proposed by the mission—the mission was instructed,
    with regards to the former, to establish a separate stand alone program.

3
 Defined as fixed local office rent and related office operational costs (i.e., utilities, phone, etc.),
salaries and benefits for long-term expatriate and local staff, and indirect costs.
                                                                                                      10
Following these initial program adjustments, the mission received further direction
from the E&E Bureau, in late-2006, in response to concerns expressed by some
members of Congress and certain implementers that the restructuring decisions may
be viewed as a reduced USG commitment to democracy in the region. To address
these concerns, the Bureau directed the mission to initiate several additional
programs. In the end, as a result of these programmatic directives, the mission
added four additional programs to its portfolio that were not originally planned,
programs totaling more than $3.5 million. During this same timeframe, the mission
was also required to fund three additional Washington-based initiatives from its
democracy budget, putting a further strain on the portfolio’s limited resources.

In an effort to fund these new programs, the mission was forced to reallocate funds
from activities planned under other programs, as well as to eliminate several staff
positions intended to provide monitoring over the programs. It also resulted in the
delayed start-up of the highest priority program in the portfolio—a civil society
initiative—by over six months while the mission determined how best to meet the
Bureau’s directives. Most importantly, however, the program changes undermined
the mission’s earlier efforts to scale down the number of implementing mechanisms
in order to reduce overhead and increase the amount of funds available for activities.

Political Environment: Another key contributing factor has been Kyrgyzstan’s
difficult political environment which, at times, hampered the implementation of certain
activities and, in some cases, undermined any progress achieved. Examples of
some of the challenges implementers have had to contend with include the following:

      Governmental Gridlock: Since the last presidential election, in 2005, there
       has been an ongoing conflict between the country’s Parliament and Executive
       branch over the authority of the President, the judiciary and the legislature
       which has stalled the enactment of meaningful laws and policies and created
       a governmental gridlock. This situation limited the impact of a number of
       USAID activities, particularly those under one program which was designed
       to strengthen Parliament’s capacity to research, draft and review legislation.

      Staff Turnover: The frequent turnover of key Government counterparts has
       been another chronic problem which has frustrated efforts to implement
       activities and see them through to completion. For instance, changes in the
       leadership of the Central Election Commission, in 2007, were cited as one of
       several factors negatively effecting USAID’s efforts to strengthen election
       administration procedures.

      Lack of Transparency: USAID activities have also been negatively affected
       as a result of the Government adopting new policies and laws without
       allowing for public participation or debate. The adoption of the new Electoral
       Code, in 2007, is one example. During that year, USAID provided expertise
       and analyses to an electoral reform working group, made up of NGOs and
       political party members, which had been formed to review and discuss the
       provisions of Kyrgyzstan’s new code. Despite this group’s work, which met
       frequently throughout the year, the Government—immediately after the
       President abruptly submitted his own version of the new Code—went ahead
       and adopted the new electoral code without any public participation or
       debate, essentially negating the group’s efforts as well as those of the
       implementer to promote civic involvement and a consultative process.

                                                                                    11
          Executive Actions: In September 2007, Kyrgyzstan’s President announced a
           snap national referendum on a new Constitution to be voted on the following
           month. Despite broad criticism of its contents, the Government adopted the
           new Constitution, in October 2007, under a voting process that was deemed
           questionable based on reports by both international and domestic observers
           who cited widespread electoral violations. Among other things, the new
           Constitution contained provisions that changed the size and representational
           system of the parliament and reversed earlier changes that provided
           increased authorities for the Parliament, revisions that effectively limited
           political competition and reduced the role of non-ruling political parties—
           undermining USAID activities designed to promote political competition and
           consensus building. During this time frame, the President also dissolved
           Parliament and called for parliamentary elections, which is likely to further
           limit the impact of USAID’s current parliamentary strengthening activities.

Collectively, these factors have limited the impact of USAID’s DG activities, and, in the
case of some programs, have actually undermined many of the gains achieved to date,
preventing USAID from making sustainable progress in achieving its overall objective of
helping to promote Kyrgyzstan’s democratic development.

And there are signs that the situation may only worsen as many of the implementers find
themselves faced with having to initiate new programs with reduced resources and a
scope of activities that has been scaled down. One such implementer, carrying out one
of the mission’s media development programs, was granted a two-year cost extension,
starting in October 2007, but with a scope of work that had been radically scaled back.
During an interview with the implementer’s regional director, in February 2008, the audit
team was informed that due to funding reductions, the program could no longer continue
to provide support to develop the country’s radio and printed (i.e., newspapers) media,
with the bulk of the program funding being allocated to TV (satellite) programming.
Some of the activities discontinued under the implementer’s new scope of work included
training for broadcasters (to develop general management and marketing skills) and
journalists (to develop more objective reporting skills); and the provision of much-needed
equipment to small undeveloped media studios. With no further activities in these areas,
it has severely reduced the implementer’s ability to broaden the diversity of programming
available and strengthen the capacity of the country’s smaller, independent media
broadcasters who are poorly equipped and operate in an environment dominated by
larger, more developed stations owned by the Government (i.e., President’s family). The
regional director, while appreciative of USAID’s continued support, felt the situation was
unfortunate. Although Kyrgyzstan posed a number of challenges for media operators,
he pointed out, the environment there is less repressive in relation to other countries in
the region, creating the potential for USAID assistance to have a far greater impact.

Since the underlying causes associated with this issue, were deemed to be beyond the
mission’s control, we are not making a recommendation on this issue. We believe,
however, that USAID should review its earlier programmatic decisions which resulted in
the expansion of Kyrgyzstan’s portfolio with additional implementing mechanisms, and
give careful consideration in the future to the effect that such decisions have in terms of
reducing the overall amount of funding available for actual program activities. With
declining resources and implementing mechanisms that require a large percentage of
total funding to cover office operations and staffing, USAID can ill afford to spread its
resources too thinly and needs to ensure that the limited funding allocated to Kyrgyzstan
is programmed effectively so that future activities achieve a greater impact.

                                                                                        12
EVALUATION OF
MANAGEMENT COMMENTS
In responding to our draft report, the USAID Mission for the Central Asian Republics
concurred with the audit findings and stated that the report accurately reflected the
results of Kyrgyzstan’s democracy and governance activities, as well as the complex
factors that have limited the overall impact of these activities.

In its written comments, the mission pointed out a few minor corrections relating to the
data presented in the report’s Schedule of Kyrgyzstan’s Democracy and Governance
Programs (appendix III) and corresponding cumulative authorized funding and
cumulative obligation totals cited in the Scope and Methodology section of the report
(appendix I). All of the suggested corrections were made in finalizing this report. Apart
from these minor corrections, the mission had no other comments on the report.




                                                                                      13
                                                                                Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Frankfurt, Germany conducted this audit of USAID’s
democracy and governance activities in Kyrgyzstan in accordance with generally
accepted government auditing standards. The purpose of the audit was to determine
whether Kyrgyzstan’s democracy and governance activities had achieved their intended
results and assess the impact of those activities. Audit fieldwork was conducted at the
USAID Mission for the Central Asian Republics (USAID/CAR) in Almaty, Khazakstan
and the Kyrgyzstan country office in Bishkek, Kyrgyzstan from February 19, 2008
through March 19, 2008. During this period, visits were also made to the implementing
partners and activity sites at both locations. The audit covered the period from October
1, 2005 to September 30, 2007, but in cases where related activities extended beyond
that period, we considered supporting documentation from prior or subsequent periods.

In planning and performing the audit, the audit team gained an understanding and
assessed relevant mission management controls and performance measures used in
monitoring the progress achieved under the country’s portfolio of programs. These
controls included the mission’s Strategy Statement, data quality assessments, the latest
annual self assessment of management controls as required by the Federal Managers’
Financial Integrity Act, quarterly and annual progress reports furnished by the
implementers, and correspondence documenting the interaction between mission staff
and program implementing partners. The audit team also gained an understanding of
the mission’s process for aggregating and reporting the program results data supporting
the performance (i.e., “standard”) indicators specified in Kyrgyzstan’s annual Operational
Plan submitted each year to the State Department’s Office of the Director of Foreign
Assistance.     We also conducted interviews with relevant USAID personnel, at the
USAID/CAR Mission and its country office in Kyrgyzstan, as well as staff for selected
implementing partners at their regional and country offices.

At the time of our audit, USAID/CAR’s portfolio of democracy and governance programs
in Kyrgyzstan consisted of twenty-two mission-managed programs being implemented
through a series of contracts and cooperative agreements by fourteen separate
implementing partners. As of September 30, 2007, these twenty-two programs had a
total authorized funding level of approximately $42.8 million, with cumulative obligations
and expenditures totaling approximately $33.6 million and $20.3 million, respectively.
The mission’s portfolio also included two additional programs which were excluded from
the scope of this audit since they were being managed by USAID/Washington. The
authorized funding level for these two programs totaled approximately $3.0 million.

In assessing whether Kyrgyzstan’s planned democracy and governance activities had
achieved their intended results, the audit team (1) compared actual program results for
fiscal years (FYs) 2006 and 2007, as reported in Kyrgyzstan’s annual Operational Plan,
against planned targets established for those years; and (2) reviewed selected activities
for 8 of the 22 programs in the mission’s portfolio to verify whether planned activities had
been completed and achieved their intended results. With regards to the latter, the audit
team reviewed a judgmental sample in which 66 of the 338 planned activities (20
percent) for fiscal years 2006 and 2007 were selected, consisting of 19 of 174 (11
percent) planned activities for FY 2006 and 47 of 164 (34 percent) for FY 2007.

                                                                                         14
                                                                               Appendix I


Methodology
To determine whether USAID/CAR’s democracy and governance activities in Kyrgyzstan
were achieving their intended results, the audit team initially interviewed pertinent
USAID/CAR staff in the mission’s Office of Democracy and Conflict Mitigation, both by e-
mail and in person, to familiarize themselves with the programs in the mission’s portfolio
(audit universe) and to gain an understanding of the mission’s procedures for gathering
and compiling program results data for reporting purposes. The audit team’s overall
assessment of whether intended results were being achieved was based on the results
of two separate analyses focusing on determining whether: (1) actual program results
were meeting or exceeding planned performance targets; and (2) planned activities had
been completed and produced the expected results (i.e., outputs).

With regards to the first analysis, focusing on the performance indicators, the audit team
reviewed the actual program results reported under the mission’s performance indicators
for FYs 2006 and 2007, as reflected in Kyrgyzstan’s Annual Operational Plan, and
compared the results against planned targets established under each indicator to
ascertain whether these targets were being met. The analysis also included validating
the reported performance results data, for a judgmentally selected sample of results, to
supporting records maintained by the implementing partners to verify whether the
reported data was accurate and reliable.

In conducting the second analysis, verifying whether planned activities were being
completed, the audit team selected a judgmental sample of planned activities specified
in the implementers’ annual work plans for 8 of the 22 programs. The team then
compared actual accomplishments under the sampled activities against planned results
from the work plans to verify that the activities had been completed and produced the
intended results. This comparison entailed examining supporting records, including
documented deliverables and the implementer’s progress reports, for evidence that the
activity had, in fact, achieved its intended results. We concluded that this was the case
in those instances where the activity achieved at least 80 percent of its planned results.

In assessing the overall impact of the mission’s democracy and governance activities,
the audit team relied primarily on information, data and correspondence provided by the
mission’s Office of Democracy and Conflict Mitigation as well as interviews with staff
from this office. The information gathered included a number of widely used industry
and internal USAID indices reflecting key indicators used to gauge the status of
democratic development in the country; various strategy documents, correspondence
documenting specific programming decisions; and annual operational reports and other
pertinent documents providing evidence on the factors limiting the impact of activities.

In addition to the above, the audit team reviewed applicable policies and procedures
pertaining to Kyrgyzstan’s democracy and governance activities, including: Federal
Managers’ Financial Integrity Act of 1982; Foreign Assistance Act of 1961, Section 116
(e); Automated Directives System (ADS) chapters 201, 203, 253, 324, 350 and 621.

Additionally, the audit team reviewed the pipeline reports showing the cumulative
obligations and expenditures under each program in the mission’s portfolio as of
September 30, 2007. The team also examined the agreements for eleven judgmentally
selected programs to verify whether the agreements included the appropriate
requirements stipulated under Section 116(e) of the Foreign Assistance Act of 1961.


                                                                                       15
                                                                            Appendix II



MANAGEMENT COMMENTS


May 20, 2008

MEMORANDUM

TO:            Regional Inspector General, Frankfurt, Gerard M. Custer

FROM:          USAID/Central Asian Republics Regional Mission Director, William Frej

SUBJECT:       USAID/CAR Comments on Audit Report No. 8-116-08-002-P, Audit of
               Kyrgyzstan’s Democracy and Governance Activities



The Mission reviewed the draft audit report on USAID’s democracy and governance
activities in Kyrgyzstan. We appreciate the comments and recommendations of the
auditors outlined in the draft report.

Apart from factual corrections to the figures contained in Appendix 3 (see corrected
version attached), the Mission has no comments on the report, except for one small point
described below. The Mission concurs with the audit findings. The report accurately
reflects the results of the audited democracy and governance activities, as well as the
complex factors that have limited overall programmatic impact.

Small correction: as the figures in Appendix III have been changed, please reflect these
changes on page 14 of the report, Scope and Methodology. In paragraph 3, total
authorized funding should be changed for $42.8 million and cumulative obligations
should be changed for $33.6 million.




                                                                                     16
                                                                                Appendix III



 Schedule of Kyrgyzstan's Democracy and Governance Programs
                                  as of September 30, 2007
                                         (unaudited)

                                              Authorized         Total           Total
#                  Program                     Funding        Obligations    Expenditures
                                                Level        as of 9/30/07   as of 9/30/07
1    Legal Education Reform                     $700,000          $300,000             $0

2    Human Rights Support                       $966,878          $966,877       $601,889

3    Parliamentary Strengthening               $1,499,000       $1,200,000       $461,021
     Decentralization and Local
4    Government                                $5,887,488       $3,217,580       $643,829

5    Local Government Initiative Phase II      $5,242,089       $5,242,089     $2,396,289

6    Peaceful Communities Initiative            $865,923          $865,923       $865,884

7    Conflict Mitigation Follow-on             $2,549,803       $2,050,103     $1,076,995

8    Political Party Development               $2,007,570       $2,007,570     $1,918,331

9    Political Party Assistance                 $975,000          $975,000       $942,165

10   Strengthening Political Parties           $1,300,000       $1,300,000       $260,513

11   Electoral Assistance                      $1,222,070       $1,222,070       $731,100

12   Legal Education Activities                $1,170,000       $1,170,000       $873,956

13   Civic Education                           $3,069,552       $3,069,552     $3,026,721

14   Civic Advocacy                            $4,775,084       $1,610,655        $77,376

15   Civil Society Support Initiative          $4,638,872       $4,618,902     $4,269,753

16   Constitution Reform Process                $185,000          $185,000       $158,042

17   Constitutional Reform                      $151,587          $150,000       $141,918

18   Constitution Reform Process                $274,992          $274,992       $136,963

19   Constitution Reform Process                $221,106          $221,106        $37,866
     Protection of Democratic Principles
20   and Freedom of Speech                      $160,000          $160,000       $149,606
     Media and Information Support
21   Initiative                                $4,060,000       $2,262,462     $1,534,587

22   NGO & Media Legal Framework                $896,000          $574,006        $35,618

                                     Totals   $42,818,014      $33,643,887    $20,340,422




                                                                                         17
